<html>
<title> - MANAGING ARSON THROUGH CRIMINAL HISTORY (MATCH) ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      MANAGING ARSON THROUGH CRIMINAL HISTORY (MATCH) ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1759

                               __________

                            NOVEMBER 6, 2007

                               __________

                           Serial No. 110-125

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
38-763 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            NOVEMBER 6, 2007

                                                                   Page

                            TEXT OF THE BILL

H.R. 1759, the ``Managing Arson Through Criminal History (MATCH) 
  Act of 2007''..................................................     1

                           OPENING STATEMENT

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    17

                               WITNESSES

The Honorable Mary Bono, a Representative in Congress from the 
  State of California
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Mr. Tracy Pansini, Burbank Fire Department, Burbank, CA
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26
Mr. William Soqui, Fire Chief, Cathedral City Fire Department, 
  Cathedral City, CA
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29


      MANAGING ARSON THROUGH CRIMINAL HISTORY (MATCH) ACT OF 2007

                              ----------                              


                       TUESDAY, NOVEMBER 6, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:06 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Johnson, Jackson Lee, 
Davis, Baldwin, Forbes, Gohmert, Coble, and Lungren.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Ameer Gopalani, Majority Counsel; Jesselyn McCurdy, Majority 
Counsel; Mario Dispenza, (Fellow) BATFE Detailee; Veronica 
Eligan, Majority Professional Staff Member; Caroline Lynch, 
Minority Counsel; and Kelsey Whitlock, Minority Staff 
Assistant.
    Mr. Scott. The Subcommittee will come to order.
    I am pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on H.R. 
1759, the ``Managing Arson Through Criminal History Act,'' or 
the ``MATCH Act of 2007.''
    [The text of the bill, H.R. 1759, follows:]

<bullet>HR 1759 IH  ___________________________________________________
                               <greek-l>

 deg.

                                                                      I
110th CONGRESS
    1st Session

                                H. R. 1759

To establish guidelines and incentives for States to establish arsonist 
    registries and to require the Attorney General to establish a 
    national arsonist registry and notification program, and for other 
    purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                             March 29, 2007
Mrs. Bono (for herself and Mr. Schiff) introduced the following bill; 
    which was referred to the Committee on the Judiciary
                               __________

                                 A BILL

To establish guidelines and incentives for States to establish arsonist 
    registries and to require the Attorney General to establish a 
    national arsonist registry and notification program, and for other 
    purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Managing Arson Through Criminal 
History (MATCH) Act of 2007''.

SEC. 2. ARSONIST REGISTRATION AND NOTIFICATION PROGRAM.

     (a) Registry Requirements for Jurisdictions.--
            (1) Jurisdiction to maintain a registry.--Each jurisdiction 
        shall establish and maintain a jurisdiction-wide arsonist 
        registry conforming to the requirements of this section.
            (2) Guidelines and regulations.--The Attorney General shall 
        issue guidelines and regulations to interpret and implement 
        this section.
    (b) Registry Requirements for Criminal Arsonists.--
            (1) In general.--A criminal arsonist shall register, and 
        shall keep the registration current, in each jurisdiction where 
        the arsonist resides, where the arsonist is an employee, and 
        where the arsonist is a student. For initial registration 
        purposes only, a criminal arsonist shall also register in the 
        jurisdiction in which convicted if such jurisdiction is 
        different from the jurisdiction of residence.
            (2) Initial registration.--The criminal arsonist shall 
        initially register--
                    (A) before completing a sentence of imprisonment 
                with respect to the offense giving rise to the 
                registration requirement; or
                    (B) not later than three business days after being 
                sentenced for that offense, if the criminal arsonist is 
                not sentenced to a term of imprisonment.
            (3) Keeping the registration current.--A criminal arsonist 
        shall, not later than three business days after each change of 
        name, residence, employment, or student status, appear in 
        person in at least one jurisdiction involved pursuant to 
        paragraph (1) and inform that jurisdiction of all changes in 
        the information required for that arsonist in the arsonist 
        registry involved. That jurisdiction shall immediately provide 
        the revised information to all other jurisdictions in which the 
        arsonist is required to register.
            (4) Initial registration of criminal arsonists unable to 
        comply with paragraph (2).--The Attorney General shall have the 
        authority to specify the applicability of the requirements of 
        this section to criminal arsonists convicted before the date of 
        the enactment of this Act or its implementation in a particular 
        jurisdiction, and to prescribe rules for the registration of 
        any such criminal arsonists and other categories of criminal 
        arsonists who are unable to comply with paragraph (2).
            (5) State penalty for failure to comply.--Each 
        jurisdiction, other than a Federally recognized Indian tribe, 
        shall provide a criminal penalty that includes a maximum term 
        of imprisonment that is greater than one year for the failure 
        of a criminal arsonist to comply with the requirements of this 
        section.
            (6) Limited authority to exempt certain criminal arsonists 
        from registry requirements.--A jurisdiction shall have the 
        authority to exempt a criminal arsonist who has been convicted 
        of the offense of arson in violation of the laws of the 
        jurisdiction in which the offense was committed or the United 
        States for the first time from the registration requirements 
        under this section in exchange for such arsonist's substantial 
        assistance in the investigation or prosecution of another 
        person who has committed an offense. The jurisdiction shall 
        revoke any such exemption and order the arsonist to comply with 
        the registration requirements of this section immediately upon 
        cessation of active cooperation with the jurisdiction relating 
        to such investigation or prosecution. The Attorney General 
        shall assure that any regulations promulgated under this 
        section include guidelines that reflect the general 
        appropriateness of exempting such an arsonist from the 
        registration requirements under this section.
    (c) Information Required in Registration.--
            (1) Provided by the arsonist.--A criminal arsonist shall 
        provide the following information to the appropriate official 
        for inclusion in the arsonist registry of a jurisdiction in 
        which such arsonist is required to register:
                    (A) The name of the arsonist (including any alias 
                used by the arsonist).
                    (B) The Social Security number of the arsonist.
                    (C) The address of each residence at which the 
                arsonist resides or will reside.
                    (D) The name and address of any place where the 
                arsonist is an employee or will be an employee.
                    (E) The name and address of any place where the 
                arsonist is a student or will be a student.
                    (F) The license plate number and a description of 
                any vehicle owned or operated by the arsonist.
                    (G) Any other information required by the Attorney 
                General.
            (2) Provided by the jurisdiction.--The jurisdiction in 
        which a criminal arsonist registers shall ensure that the 
        following information is included in the registry for such 
        arsonist:
                    (A) A physical description of the arsonist.
                    (B) The text of the provision of law defining the 
                criminal offense for which the arsonist is registered.
                    (C) The criminal history of the arsonist, including 
                the date of all arrests and convictions; the status of 
                parole, probation, or supervised release; registration 
                status; and the existence of any outstanding arrest 
                warrants for the arsonist.
                    (D) A current photograph of the arsonist.
                    (E) A set of fingerprints and palm prints of the 
                arsonist.
                    (F) A photocopy of a valid driver's license or 
                identification card issued to the arsonist by a 
                jurisdiction.
                    (G) Any other information required by the Attorney 
                General.
    (d) Duration of Registration Requirement.--A criminal arsonist 
shall keep the registration information provided under subsection (c) 
current for the full registration period (excluding any time the 
arsonist is in custody or civilly committed). For purposes of this 
subsection, the full registration period--
            (1) shall commence on the later of the date on which the 
        arsonist is convicted of an offense of arson in violation of 
        the laws of the jurisdiction in which the offense was committed 
        or the United States, the date on which the arsonist is 
        released from prison for such conviction, or the date on which 
        such arsonist is placed on parole, supervised release, or 
        probation for such conviction; and
            (2) shall be--
                    (A) five years for an arsonist who has been 
                convicted of such an offense for the first time;
                    (B) ten years for an arsonist who has been 
                convicted of such an offense for the second time; and
                    (C) for the life of the arsonist for an arsonist 
                who has been convicted of such an offense more than 
                twice.
    (e) Annual Verification.--Not less than once in each calendar year 
during the full registration period, a criminal arsonist required to 
register under this section shall--
            (1) appear in person at not less than one jurisdiction in 
        which such arsonist is required to register;
            (2) allow such jurisdiction to take a current photograph of 
        the arsonist; and
            (3) while present at such jurisdiction, verify the 
        information in each registry in which that arsonist is required 
        to be registered.
    (f) Duty To Notify Criminal Arsonists of Registration Requirements 
and To Register.--
            (1) In general.--An appropriate official shall, shortly 
        before release of a criminal arsonist from custody, or, if the 
        arsonist is not in custody, immediately after the sentencing of 
        the arsonist for the offense giving rise to the duty to 
        register--
                    (A) inform the arsonist of the duties of the 
                arsonist under this section and explain those duties;
                    (B) require the arsonist to read and sign a form 
                stating that the duty to register has been explained 
                and that the arsonist understands the registration 
                requirement; and
                    (C) ensure that the arsonist is registered.
            (2) Notification of criminal arsonists who cannot comply 
        with paragraph (1).--The Attorney General shall prescribe rules 
        for the notification of criminal arsonists who cannot be 
        notified and registered in accordance with paragraph (1).
    (g) Access to Criminal Arsonist Information Through the Internet.--
            (1) In general.--Except as provided in this subsection, 
        each jurisdiction shall make available on the Internet, in a 
        manner that is readily accessible to all jurisdictions, law 
        enforcement officers, and fire safety officers, all information 
        about each criminal arsonist in the registry. The jurisdiction 
        shall also include in the design of its Internet site all field 
        search capabilities needed for full participation in the 
        National criminal arsonist Internet site established under 
        subsection (i) and shall participate in that Internet site as 
        provided by the Attorney General.
            (2) Optional exemptions.--A jurisdiction may exempt from 
        disclosure, with respect to information about a criminal 
        arsonist--
                    (A) any information about the arsonist involving 
                conviction for an offense other than the offense or 
                offenses for which the arsonist is registered;
                    (B) the name of an employer of the arsonist;
                    (C) the name of an educational institution where 
                the arsonist is a student;
                    (D) any information about the arsonist if the 
                arsonist is participating in a witness protection 
                program and the release of such information could 
                jeopardize the safety of the arsonist or any other 
                individual; and
                    (E) any other information identified as an optional 
                exemption from disclosure by the Attorney General.
            (3) Links.--An Internet site established by a jurisdiction 
        pursuant to paragraph (1) shall include, to the extent 
        practicable, links to substance abuse education resources.
            (4) Correction of errors.--An Internet site established by 
        a jurisdiction pursuant to paragraph (1) shall include 
        instructions on how to seek correction of information that an 
        individual contends is erroneous.
            (5) Warning.--An Internet site established by a 
        jurisdiction pursuant to paragraph (1) shall include a warning 
        that information on the site should not be used to unlawfully 
        injure, harass, or commit a crime against any individual named 
        in the registry or residing or working at any reported address. 
        The warning shall note that any such action could result in 
        civil or criminal penalties.
    (h) National Criminal Arsonist Registry.--
            (1) In general.--The Attorney General shall maintain a 
        national database at the Federal Bureau of Investigation for 
        each criminal arsonist and any other person required to 
        register in a jurisdiction's arsonist registry under subsection 
        (a). The database shall be known as the National Arsonist 
        Registry.
            (2) Electronic forwarding.--The Attorney General shall 
        ensure (through the National Arsonist Registry or otherwise) 
        that updated information about a criminal arsonist is 
        immediately transmitted by electronic forwarding to all 
        relevant jurisdictions.
    (i) National Arsonist Internet Site.--The Attorney General shall 
establish and maintain a national arsonist Internet site. The Internet 
site shall include relevant information for each criminal arsonist and 
other person listed on a jurisdiction's Internet site under subsection 
(g). The Internet site shall allow law enforcement officers and fire 
safety officers to obtain relevant information for each such arsonist 
by a single query for any given zip code or geographical radius set by 
the user in a form and with such limitations as may be established by 
the Attorney General and shall have such other field search 
capabilities as the Attorney General may provide.
    (j) Notification Procedures.--Under an arsonist registration 
program established by a jurisdiction pursuant to subsection (a), 
immediately after a criminal arsonist registers or updates a 
registration, an appropriate official in the jurisdiction shall provide 
the information in the registry (other than information exempted from 
disclosure by the Attorney General) about that offender to the 
following:
            (1) The Attorney General, who shall include that 
        information in the National Arsonist Registry or other 
        appropriate databases.
            (2) Appropriate law enforcement agencies (including 
        probation agencies, if appropriate), and each school and public 
        housing agency, in each area in which the offender resides, is 
        an employee, or is a student.
            (3) Each jurisdiction where the offender resides, is an 
        employee, or is a student, and each jurisdiction from or to 
        which a change of residence, employment, or student status 
        occurs.
            (4) Any organization, company, or individual who requests 
        such notification pursuant to procedures established by the 
        jurisdiction.
    (k) Actions To Be Taken When Criminal Arsonist Fails To Comply.--
Under an arsonist registration program established by a jurisdiction 
pursuant to subsection (a), an appropriate official of the jurisdiction 
shall notify the Attorney General and appropriate law enforcement 
agencies of any failure by a criminal arsonist to comply with the 
requirements of the arsonist registry for such jurisdiction, and shall 
revise the registry to reflect the nature of such failure. The 
appropriate official, the Attorney General, and each such law 
enforcement agency shall take any appropriate action to ensure 
compliance.
    (l) Development and Availability of Registry Management and Website 
Software.--
            (1) Duty to develop and support.--The Attorney General 
        shall, in consultation with the jurisdictions, develop and 
        support software to enable jurisdictions to establish and 
        operate uniform arsonist registries and Internet sites.
            (2) Criteria.--The software described in paragraph (1) 
        should facilitate--
                    (A) immediate exchange of information among 
                jurisdictions;
                    (B) access over the Internet to appropriate 
                information, including the number of registered 
                criminal arsonists in each jurisdiction on a current 
                basis;
                    (C) full compliance with the requirements of this 
                section; and
                    (D) communication of information as required under 
                subsection (j).
            (3) Deadline.--The Attorney General shall make the first 
        complete edition of this software available to jurisdictions 
        not later than two years after the date of the enactment of 
        this Act.
    (m) Period for Implementation by Jurisdictions.--
            (1) Deadline.--To be in compliance with this section, a 
        jurisdiction shall implement this section before the later of--
                    (A) three years after the date of the enactment of 
                this Act; or
                    (B) one year after the date on which the software 
                described in subsection (l) is made available to such 
                jurisdiction.
            (2) Extensions.--The Attorney General may authorize not 
        more than two one-year extensions of the deadline under 
        paragraph (1).
    (n) Failure of Jurisdiction To Comply.--
            (1) In general.--For any fiscal year after the deadline 
        described in subsection (m), a jurisdiction that fails, as 
        determined by the Attorney General, to substantially implement 
        this section shall not receive 10 percent of the funds that 
        would otherwise be allocated for that fiscal year to the 
        jurisdiction under subpart 1 of part E of title I of the 
        Omnibus Crime Control and Safe Streets Act of 1968 (42 U.S.C. 
        3750 et seq.).
            (2) State constitutionality.--
                    (A) In general.--When evaluating whether a 
                jurisdiction has substantially implemented this 
                section, the Attorney General shall consider whether 
                the jurisdiction is unable to substantially implement 
                this section because of a demonstrated inability to 
                implement certain provisions that would place the 
                jurisdiction in violation of its constitution, as 
                determined by a ruling of the jurisdiction's highest 
                court.
                    (B) Efforts.--If the circumstances arise under 
                subparagraph (A), then the Attorney General and the 
                jurisdiction involved shall make good faith efforts to 
                accomplish substantial implementation of this section 
                and to reconcile any conflicts between this section and 
                the jurisdiction's constitution. In considering whether 
                compliance with the requirements of this section would 
                likely violate the jurisdiction's constitution or an 
                interpretation thereof by the jurisdiction's highest 
                court, the Attorney General shall consult with the 
                chief executive and chief legal officer of the 
                jurisdiction concerning the jurisdiction's 
                interpretation of the jurisdiction's constitution and 
                rulings thereon by the jurisdiction's highest court.
                    (C) Alternative procedures.--If a jurisdiction is 
                unable to substantially implement this section because 
                of a limitation imposed by the jurisdiction's 
                constitution, the Attorney General may determine that 
                the jurisdiction is in compliance with this section if 
                the jurisdiction has made, or is in the process of 
                implementing, reasonable alternative procedures or 
                accommodations, which are consistent with the purposes 
                of this section.
                    (D) Funding reduction.--If a jurisdiction 
                determined to be in compliance under subparagraph (C) 
                does not comply with the alternative procedures or 
                accommodations described in such subparagraph, then the 
                jurisdiction shall be subject to a funding reduction as 
                specified in paragraph (1).
            (3) Reallocation.--Amounts not allocated under a program 
        referred to in this subsection to a jurisdiction for failure to 
        substantially implement this section shall be reallocated under 
        that program to jurisdictions that have not failed to 
        substantially implement this section or may be reallocated to a 
        jurisdiction from which they were withheld to be used solely 
        for the purpose of implementing this section.
            (4) Rule of construction.--The provisions of this section 
        that are cast as directions to jurisdictions or their officials 
        constitute, in relation to States, only conditions required to 
        avoid the reduction of Federal funding under this subsection.
    (o) Election by Indian Tribes.--
            (1) Election.--
                    (A) In general.--A federally recognized Indian 
                tribe may, by resolution or other enactment of the 
                tribal council or comparable governmental body, elect 
                to carry out this subtitle as a jurisdiction subject to 
                its provisions.
                    (B) Implementation.--If a tribe does not, within 
                one year of enactment of this Act, make an election to 
                take on these duties, it shall, by resolution or other 
                enactment of the tribal council or comparable 
                governmental body, enter into a cooperative agreement 
                to arrange for a jurisdiction to carry out any function 
                of the tribe under this Act until such time as the 
                tribe elects to carry out this Act.
            (2) Cooperation between tribal authorities and other 
        jurisdictions.--
                    (A) Nonduplication.--A tribe subject to this 
                subtitle is not required to duplicate functions under 
                this subtitle which are fully carried out by another 
                jurisdiction or jurisdictions within which the 
                territory of the tribe is located.
                    (B) Cooperative agreements.--A tribe may, through 
                cooperative agreements with such a jurisdiction or 
                jurisdictions--
                            (i) arrange for the tribe to carry out any 
                        function of such a jurisdiction under this 
                        subtitle with respect to arsonists subject to 
                        the tribe's jurisdiction; and
                            (ii) arrange for such a jurisdiction to 
                        carry out any function of the tribe under this 
                        subtitle with respect to arsonists subject to 
                        the tribe's jurisdiction.
            (3) Law enforcement authority in indian country.--
        Enforcement of this Act in Indian country, as defined in 
        section 1151 of title 18, United States Code, shall be carried 
        out by Federal, Tribal, and State governments under existing 
        jurisdictional authorities.
    (p) Immunity for Good Faith Conduct.--The Federal Government, 
jurisdictions, political subdivisions of jurisdictions, and their 
agencies, officers, employees, and agents shall be immune from 
liability for good faith conduct under this section.
    (q) Authorization of Appropriations.--In addition to any amounts 
otherwise authorized to be appropriated, there are authorized to be 
appropriated to the Attorney General, to carry out subsections (h) and 
(i) of this section, such sums as may be necessary for each of the 
fiscal years 2008 through 2013.

SEC. 3. CRIMINAL ARSONIST MANAGEMENT ASSISTANCE PROGRAM.

    (a) In General.--The Attorney General shall establish and implement 
a Criminal Arsonist Management Assistance program (in this section 
referred to as the ``Assistance Program''), under which the Attorney 
General may award a grant to a jurisdiction to offset the costs of 
implementing section 2.
    (b) Application.--The chief executive of a jurisdiction desiring a 
grant under this section shall, on an annual basis, submit to the 
Attorney General an application in such form and containing such 
information as the Attorney General may require.
    (c) Bonus Payments for Prompt Compliance.--A jurisdiction that, as 
determined by the Attorney General, has substantially implemented 
section 2 not later than two years after the date of the enactment of 
this Act is eligible for a bonus payment. The Attorney General may make 
such a payment under the Assistance Program for the first fiscal year 
beginning after that determination. The amount of the bonus payment 
shall be as follows:
            (1) In the case of a determination that the jurisdiction 
        has substantially implemented such section by a date that is 
        not later than the date that is one year after the date of the 
        enactment of this Act, 10 percent of the total received by the 
        jurisdiction under the Assistance Program for the preceding 
        fiscal year.
            (2) In the case of a determination that the jurisdiction 
        has substantilly implemented such section by a date that is 
        later than one year after the date of the enactment of this 
        Act, but not later than the date that is two years after such 
        date of enactment, 5 percent of such total.
    (d) Authorization of Appropriations.--In addition to any amounts 
otherwise authorized to be appropriated, there are authorized to be 
appropriated to the Attorney General, to be available only for the 
Assistance Program, such sums as may be necessary for each of the 
fiscal years 2008 through 2013.

SEC. 4. DEFINITIONS.

    For purposes of this Act:
            (1) Criminal arsonist.--The term ``criminal arsonist'' 
        means an individual who is convicted of any criminal offense 
        for committing arson in violation of the laws of the 
        jurisdiction in which such offense was committed or the United 
        States.
            (2) Arsonist registry.--The term ``arsonist registry'' 
        means a registry of criminal arsonists, and a notification 
        program, maintained by a jurisdiction.
            (3) Criminal offense.--The term ``criminal offense'' means 
        a State, local, tribal, foreign, or military offense (to the 
        extent specified by the Secretary of Defense under section 
        115(a)(8)(C)(i) of Public Law 105-119 (10 U.S.C. 951 note)) or 
        other criminal offense.
            (4) Employee.--The term ``employee'' includes an individual 
        who is self-employed or works for any other entity, whether 
        compensated or not.
            (5) Fire safety officer.--The term ``fire safety officer'' 
        means--
                    (A) a firefighter, as such term is defined in 
                section 1204 of the Omnibus Crime Control and Safe 
                Street Act of 1968 (42 U.S.C. 3796b)); or
                    (B) an individual serving in an official capacity 
                as a firefighter, fire investigator, or other arson 
                investigator, as defined by the jurisdiction for the 
                purposes of this Act.
            (6) Jurisdiction.--The term ``jurisdiction'' means any of 
        the following:
                    (A) A State.
                    (B) The District of Columbia.
                    (C) The Commonwealth of Puerto Rico.
                    (D) Guam.
                    (E) American Samoa.
                    (F) The Northern Mariana Islands.
                    (G) The United States Virgin Islands.
                    (H) To the extent provided and subject to the 
                requirements of section 2(o), a Federally recognized 
                Indian tribe.
            (7) Law enforcement officer.--The term ``law enforcement 
        officer'' has the meaning given such term in section 1204 of 
        the Omnibus Crime Control and Safe Street Act of 1968 (42 
        U.S.C. 3796b)).
            (8) Resides.--The term ``resides'' means, with respect to 
        an individual, the location of the individual's home or other 
        place where the individual habitually lives.
            (9) Student.--The term ``student'' means an individual who 
        enrolls in or attends an educational institution (whether 
        public or private), including a secondary school, trade or 
        professional school, and institution of higher education.
                                 <all>



    Mr. Scott. According to the United States Fire 
Administration, arson is the leading cause of fire in the 
United States, causing over 2,000 injuries and 400 deaths 
annually. This also results in an annual $1.4 billion in 
property damage.
    It is one of the most difficult crimes to prosecute, with 
only 16 percent of the cases resulting in arrest and only 2 
percent resulting in a conviction.
    Although arson places a tremendous cost in property and 
lives every year, there is no national registry requiring 
convicted arsonists to notify law enforcement of their 
residence, place of employment or other information that would 
aid law enforcement in identifying offenders with a 
demonstrated proclivity to committing arson offenses.
    To aid law enforcement in identifying criminal activity 
related to arson, the gentlelady from California, Ms. Bono, 
introduced H.R. 1759, the ``MATCH Act of 2007,'' which would 
establish a comprehensive nationwide network registry database 
maintained by the attorney general that would track convicted 
arsonists.
    The bill has 52 co-sponsors with broad bipartisan support 
and would mandate convicted arsonists to register in each 
jurisdiction in which he or she resides, as an employee or as a 
student at an educational institution.
    Proponents of 1759 believe that with such information law 
enforcement authorities would be able to identify those who 
have a demonstrated proclivity toward arson and are residing, 
working or studying in the area in which an arson fire occurs.
    In turn, law enforcement authorities could solve more arson 
crimes and possibly prevent them because potential arsonists 
would know that they are registered with the local authorities 
and would immediately fall under suspicion.
    The result would presumably be a reduction of the toll on 
property and on lives that arson takes on the United States.
    On the other hand, opponents of H.R. 1759 object to the 
bill on a number of constitutional and policy-based grounds. 
First, opponents find that the bill violates separations of 
power by impermissibly delegating legislative authority to the 
attorney general.
    Opponents also find that H.R. 1759 could lead to violations 
of the ex post facto clause of the Constitution, and the bill 
would exceed Congress' authority under the commerce clause.
    Further, they believe that the bill would be an improper 
exercise of Congress in spending power; and finally, that the 
bill is broader than necessary to accomplish the valid law 
enforcement purposes.
    And without objection, I would like to introduce into the 
record a letter written to the full Committee by Federal public 
defender Thomas Hillier of the Western District of Washington, 
that details the opposition concerns.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. It is my pleasure now to recognize my colleague 
from Virginia, the Ranking Member of the Subcommittee, Mr. 
Forbes, for his statement.
    Mr. Forbes. Thank you, Chairman Scott. And I thank you for 
holding this hearing today on H.R. 1759, the ``Managing Arson 
through Criminal History,'' or ``MATCH Act of 2007.''
    I also want to commend our colleagues from California, 
Congresswoman Bono and Congressman Schiff, for their hard work 
on this legislation and thank them for taking time out of their 
busy schedules to be with us today.
    My colleagues from California know all too well the 
devastation that arson causes. The California wildfires have 
killed 14 people and injured as many as 70 others.
    The fires have torched over 500,000 acres, from Los Angeles 
to the Mexican border, and displaced 513,000 people from their 
homes. Costs in San Diego County alone are projected to exceed 
$1 billion.
    Sadly, arson is to blame for at least two of the nearly two 
dozen wildfires that spread across California last month and 
continue to burn in some areas.
    The Santiago fire, which was ignited by an arsonist on 
October 21, was 90 percent contained on Sunday evening. 
Fourteen hundred firefighters have been battling this blaze, 
which has charred nearly 29,000 acres for over 2 weeks.
    The national arson statistics are troubling. According to 
the FBI's Uniform Crime Reporting Program, 69,055 arson 
offenses were reported in 2006, a 2.1 percent increase over 
2005. The average value lost per arson offense was $13,325.
    In recent years, arson has become an effective tool for 
ecoterrorists who have destroyed homes in Arizona, Colorado, 
and New York to protest urban sprawl. In my home state of 
Virginia, roughly 1,400 forest fires have burned this year, and 
20 percent of these fires were deliberately set.
    In 1994, California established an arson database to track 
arsons dating back to 1979. The database includes information 
on the type of arson, the number of arson offenses, the number 
of closed cases and the estimated dollar value of property 
damage.
    Similar to the California database, the MATCH Act creates a 
national arson registry and requires criminal arsonists to 
report where they live, work and go to school.
    In addition, the act requires the national database to 
include finger and palm prints and an up-to-date photograph. 
The MATCH Act will assist law enforcement officials with 
identifying and apprehending arsonists, particularly serial 
arsonists, and ecoterrorists.
    I look forward to hear from today's witnesses about this 
proposal.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Scott. Thank you.
    We have a very distinguished--we are joined by the 
gentleman from Georgia, Mr. Johnson, and we will ask all other 
Members to have their statements entered for the record.
    We have a very distinguished panel of witnesses before us 
to help us consider important issues that are currently before 
us.
    Our first witness is the bill's sponsor, the Honorable Mary 
Bono, who represents California's 45th Congressional District. 
She is the chief sponsor of the legislation.
    She is a graduate of the University of Southern California 
and earned a bachelor of fine arts degree in art history.
    Our next witness will be Congressman Adam Schiff, who 
represents California's 29th District. As a fellow Californian 
of Ms. Bono, he also well knows the devastation arson fires can 
cause as his congressional district has been heavily affected 
by the recent fires.
    He is a co-sponsor of H.R. 1759, a graduate of Stanford 
University and Harvard Law School.
    Next witness will be Fire Chief Tracy Pansini of Burbank, 
California. He is the fire chief in Burbank, with almost 30 
years of experience as a firefighter, engineer, paramedic, fire 
captain, instructor, battalion chief and assistant chief.
    He was appointed interim fire chief in May of 2005 and fire 
chief in January 2006. In August 2007, he was appointed Area C 
coordinator, which consists of 11 adjacent cities in Southern 
California.
    Our final witness will be Fire Chief William Soqui of the 
Cathedral City Fire Department in Cathedral, California. He has 
25 years of fire experience that includes being a firefighter 
paramedic, a hazardous materials specialist and a fire 
investigator.
    In his leadership roles, he has been fire battalion chief 
managing operations, also working in emergency, medical and 
ambulance services, training, hazardous materials and as deputy 
fire marshal before his appointment as fire chief in October of 
last year.
    He has an associate of science degree in fire technology 
and emergency medical services from Crafton Hills College and a 
bachelor of science degree in business administration and 
management from the University of Redlands.
    Each of our witnesses' written statements will be entered 
into the record in its entirety.
    I would ask each of our witnesses to summarize his or her 
testimony in 5 minutes or less, and to help you stay within 
that time, there is a timing device on your table.
    When the light goes from green to yellow, you will have 1 
minute to conclude your testimony. And when the light turns 
red, we would appreciate it if you would come to a conclusion.
    We will begin with Ms. Bono.

   TESTIMONY OF THE HONORABLE MARY BONO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono. Good afternoon, Chairman Scott, Ranking Member 
Forbes, Members of the Subcommittee.
    I want to thank you for convening this hearing today and 
allowing me the opportunity to testify on the ``Managing Arson 
Through Criminal History,'' or ``MATCH Act of 2007.''
    I am very pleased to have been joined in this effort by my 
good friend and colleague from California, Representative Adam 
Schiff. And although Stanford completely dashed USC's hopes for 
a championship game this year, I still like him anyway.
    So I have appreciated his expertise and his willingness to 
work with me to make improvements to this legislation.
    Although we introduced the MATCH Act several months ago, 
the devastation of the recent catastrophic fires in California 
have called to the Nation's attention the damage and 
destruction that fire can cause.
    The cause of these fires, which burned over 500,000 acres, 
are still under investigation, and some are suspected to be the 
result of arson.
    Through these recent events, we have all been reminded of 
the bravery of the men and the women on the front lines of 
these powerful and all but uncontrollable fires.
    This issue is one that is near the heart of my community. 
Just over a year ago, we lost five dedicated U.S. Forest 
Service firefighters in the Esperanza fire, a blaze that has 
been attributed to arson.
    One of the fallen firefighters, Jason McKay, called his 
girlfriend Stacy shortly before his death to tell her that he 
loved her before going out and losing his life to save the 
lives of others.
    Jason was planning to propose to Stacy at Christmas. Now 
they will not have that opportunity for a future together, 
something that so many of us take for granted.
    But Jason and Stacy's story is not the only tale of tragedy 
due to arson. The devastation, pain and loss that result from 
arson are felt by all of its victims.
    The Peria family in Hawaii was forced to live in a tent on 
the ashes of their family home, after their house and cars were 
randomly lit on fire.
    The Bernard family of Georgia relies on the community to 
ensure that their basic needs are met, after their mobile home 
burned to the ground. The young children escaped only after 
their teenage daughter broke through and crawled through jagged 
glass to help her family out.
    I can share statistic after statistic about the damage 
caused by arson, the millions of dollars lost and grand totals 
of people affected.
    But what these numbers fail to convey is the story of 
individuals, the hundreds of families currently in Southern 
California who will have nowhere to celebrate the holidays this 
year, the veteran who lost his war medals and mementos before 
he could share them with his grandchildren, the baby pictures, 
the refrigerator art, the family rocking chair--the things and 
the heirlooms that no insurance policy could possibly replace 
and no one else will quite ever understand.
    It is our duty as Members of Congress to provide what tools 
and infrastructure we can to aid in both the prevention of this 
crime and speedy apprehension of those who choose to commit it.
    The MATCH Act, which I introduced earlier this year as H.R. 
1759, creates a national arson registry. This registry combines 
the efforts of Federal, local and State law enforcement 
officials to track criminal arsonists.
    We have worked to ensure that this registry does not 
infringe on States' rights. The MATCH Act is not intended for 
youth. It is expressly targeted at adults and repeat offenders.
    States maintain their ability to treat juvenile offenders 
in the manner best suited to the needs of their States and 
localities.
    Records kept in the database envisioned as a result of this 
legislation have been an area of which I have paid particular 
attention, giving law enforcement the information they need. I 
have based some of this framework on the successful sex 
offender registry law.
    Additionally, our discussions with the Bureau of ATF and 
Explosives have indicated that this registry will serve an 
important function in tracking serial arsonists.
    It is my sincere belief that the MATCH Act will make a 
meaningful difference in the way we approach and deal with 
arson.
    I would like to thank the fire chiefs from California who 
have joined us today. I know that each of us will benefit from 
their insight and experience.
    I would like to give a special thanks to Chief Soqui, who 
was actually responsible for the concept of a national arson 
registry. He is a resident of my district, and I am grateful 
for his willingness to participate in today's hearing and to be 
a part of crafting this legislation.
    In closing, I would like to make clear my commitment to 
work with Members from both sides of the aisle and staff to 
ensure that we move forward a well-crafted, workable piece of 
legislation.
    I have been heartened by the support that I have received 
from so many Members of this Committee for this legislation. 
More than 15 Members of the Judiciary Committee are currently 
co-sponsors of the MATCH Act.
    I look forward to working with each of you as the 
legislative process moves forward.
    Again, thank you, Mr. Chairman and Ranking Member Forbes, 
for holding this hearing today.
    [The prepared statement of Ms. Bono follows:]

  Prepared Statement of the Honorable Mary Bono, a Representative in 
                 Congress from the State of California

    Good afternoon Chairman Scott, Ranking Member Forbes and Members of 
the Subcommittee. I want to thank you for convening this hearing and 
allowing me the opportunity to testify today on the Managing Arson 
Through Criminal History or MATCH Act.
    I am pleased to have been joined in this effort by my good friend 
and colleague from California, Representative Adam Schiff. I have 
appreciated his expertise and willingness to work with me to make 
improvements to the legislation.
    Although we introduced the MATCH Act several months ago, the 
devastation of the recent catastrophic fires in California have called 
to the nation's attention the damage and destruction that fire can 
cause. The cause of these fires, which burned over half a million 
acres, are still under investigation and some are suspected to be the 
result of arson.
    Through these recent events, we have all been reminded of the 
bravery of the men and women at the front lines of these powerful and 
all but uncontrollable fires. This issue is one that is near to the 
heart of my community. Just over a year ago, we lost five dedicated US 
Forest Service firefighters in the Esperanza fire, a blaze that has 
been attributed to arson.
    One of the fallen fire fighters, Jason McKay called his girlfriend, 
Staci, shortly before his death to tell her that he loved her before 
going out and losing his life to save others.
    Jason was planning to propose to Staci at Christmas. Now they will 
not have the opportunity for a future together, something that so many 
of us take for granted.
    But Jason and Staci's story is not the only tale of tragedy due to 
arson--the devastation, pain and loss that result from arson are felt 
by all its victims. The Parilla family in Hawaii was forced to live in 
a tent on the ashes of their family home after their house and cars 
were randomly lit on fire. The Barnard family of Georgia relies on the 
community to ensure that their basic needs are met after their mobile 
home burned to the ground. The young children escaped only after a 
teenage daughter broke and crawled through jagged glass to help her 
family out.
    I can share statistic after statistic about the damage caused by 
arson, the millions of dollars lost and grand totals of people 
affected.
    But what these numbers fail to convey are the stories of 
individuals. The hundreds of families in Southern California who will 
have nowhere to celebrate the holidays this year, the veteran who lost 
his war medals and mementos before he could share them with his 
grandchildren, the baby pictures, the refrigerator art, the family 
rocking chair--the things that no insurance policy could possibly 
replace and that no one else will ever quite understand.
    It is our duty as Members of Congress to provide what tools and 
infrastructure we can to aid in both the prevention of this crime and 
speedy apprehension of those who chose to commit it. The MATCH Act, 
which I introduced earlier this year as H.R. 1759, creates a national 
arson registry. This registry combines the efforts of federal, local 
and state law enforcement officials to track criminal arsonists.
    We have worked to ensure that this registry does not infringe on 
states' rights. The MATCH Act is not intended for youth, it is 
expressly targeted at adults and repeat offenders. States maintain 
their ability to treat juvenile offenders in the manner best suited to 
the needs of their states and localities.
    Records kept in the proposed database have been an area in which I 
have paid particular attention, giving law enforcement the information 
they need. I have based some of this framework on the successful sex 
offender registry law. Additionally, our discussions with the Bureau of 
Alcohol, Tobacco, Firearms and Explosives have indicated that this 
registry will serve an important function in tracking serial arsonists.
    It is my sincere belief that the MATCH Act will make a meaningful 
difference in the way that we approach and deal with arson. I would 
like to thank the Fire Chiefs from California that have joined us 
today; I know that each of us will benefit from their insight and 
experience. I would like to give a special thanks to Chief Soqui who is 
actually responsible for the concept of a national arson registry. He 
is a resident of my district, and I am grateful for his willingness to 
participate in today's hearing and be a part of crafting this 
legislation.
    In closing, I would like to make clear my commitment to work with 
Members from both sides of the aisle to ensure that we move forward a 
well crafted, workable piece of legislation. I have been heartened by 
the support that I have received from so many members of this Committee 
for this legislation; more than 15 Members of the Judiciary Committee 
are currently co-sponsors of the MATCH Act. I look forward to working 
with each of you as the legislative process moves forward. Again, thank 
you Mr. Chairman and Ranking Member for holding this hearing today.

    Mr. Scott. Thank you.
    Mr. Schiff?

TESTIMONY OF THE HONORABLE ADAM B. SCHIFF, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Schiff. Mr. Chairman and Ranking Member, thank you very 
much for having the hearing today. This is, I think, my second 
time to testify before you in the last couple months, and I 
have come to realize how much easier it is sitting up there 
than down here.
    But I am grateful for the opportunity and appreciate this 
hearing and markup as well, and I extend my thanks to my 
colleague, Mary Bono, for her superb leadership on this issue 
in crafting this legislation that I think will make a real 
difference in the prevention of arson and the prosecution of 
arson.
    I am very grateful to work with my colleague, and it has 
been a great pleasure.
    I also want to extend my thanks to Chief Pansini, of 
Burbank for the superb job that he does each and every day, 
keeping my constituents safe from fire.
    We live in a city that is bordered by some spectacularly 
beautiful Verdugo Mountains that are very dry and wonderful 
kindling, unfortunately, and his department does a superb job 
in protecting the people of the city of Burbank and other 
cities as well, so I am very grateful the chief was able to 
come out and join us.
    I would like to submit my testimony for the record and just 
summarize it, if I can, and talk about, I think, what some of 
the practical applications of this registry will be.
    I was a prosecutor for a number of years and prosecuted 
arson, among other things, and one case in particular that I 
handled I think is a good indication of how this registry will 
be of great benefit.
    This was in the late 1980's, early 1990's, and someone was 
setting a string of fires in the San Bernardino forest, and 
investigators weren't able to find out who it was.
    They kept starting fires by using a device that was a 
cigarette with matches taped around it and the person would 
smoke the cigarette, drive around, throw the cigarette into the 
brush.
    The cigarette would burn down to the matches, ignite the 
matches, ignite the brush, and by that point he and his vehicle 
were far away.
    So there were these series of fires all started with the 
same incendiary device. They couldn't find out who it was. They 
couldn't catch him in the act. What they ended up doing was 
installing video cameras at the entrances and exits of the 
forest.
    And the next time a fire started, they figured out the 
point of origin of the fire, and the amount of time it would 
take to go from the port of origin past one of the entrances or 
exits, and they looked at the license plate numbers of the 
vehicles that passed within that window.
    They then tracked down some of those drivers. They found 
one who smoked the same brand of cigarette, which was an 
unusual brand, that was used in these fires and also compiled 
other evidence which was enough for probable cause, but not 
enough to prove beyond a reasonable doubt that their suspect 
had committed the crimes.
    He was arrested, and he was interviewed. He admitted to 
setting the fires in a taped interview. However, the tape 
recording malfunctioned and the confession was lost and, with 
it, most of the case.
    And as we pursued the investigation to try to find other 
evidence before we had to go to trial, we found a probation 
officer of the suspect from many years earlier who had kept his 
probation records in his basement and pulled the file on the 
suspect and found that the suspect, many years ago, had set 
fires using a cigarette with matches taped around it, the same 
exact modus operandi.
    And when the suspect was confronted with this evidence, he 
ended up pleading guilty.
    Now, if we would have had a registry like this in existence 
at the time, we would have known of convicted arsonists who 
lived in the region. We would have known what their modus 
operandi was. We might have been able to stop him before he set 
several of the later fires.
    We might have been able to convict him without the fortuity 
of having found this probation officer who kept records, 
fortuitously also, in his basement.
    Keeping records in your basement is not a sound 
investigative law enforcement strategy. A registry like this, I 
think, is. And when my colleague approached me with it, I was 
very delighted to join her effort. I think this will make a 
real difference in two respects.
    It will make a real difference in the investigation of 
arson that has occurred by knowing what convicted arsonists are 
in the region.
    But it will also make a difference, I think, in deterring 
arson because someone who is contemplating arson who is a part 
of the registry will know that they will be immediately on the 
suspect list if they commit further arson.
    So I think it is a very important bill. I am glad to be 
associated with it. And I thank the Committee for this hearing.
    And I yield back, Mr. Chairman.
    [The prepared statement of Mr. Schiff follows:]

Prepared Statement of the Honorable Adam B. Schiff, a Representative in 
                 Congress from the State of California

    Mr. Chairman, thank you for inviting me to testify before the 
Subcommittee. This hearing focuses on legislation that Congresswoman 
Mary Bono and I introduced earlier this year. The Managing Arson 
Through Criminal History Act--the MATCH Act--would create a national 
arson registry, which would provide an important tool for law 
enforcement officers to track arsonists and share information across 
jurisdictions.
    When I was a prosecutor with the U.S. Attorney's Office in Los 
Angeles, I worked on cases related to arson, and I saw then the damage 
that arson can cause.
    Over recent weeks, the nation saw the destruction caused by the 
fires in Southern California. Over 1,500 homes were destroyed and half 
a million acres of land burned. 7 people died, and 85 more were 
injured, including 61 firefighters. These brave heroes put their lives 
on the line everyday for us to protect people, homes and wildlife, and 
I thank them for their service.
    In climate like California, with hot weather, drought and the Santa 
Ana winds, a small fire can become particularly devastating. When I 
first learned that some of fires last month were caused by arson, I was 
sickened. Such incredible damage and destruction that was completely 
unnecessary and malicious.
    In California, arson ranks in the top 3 known causes of the state's 
wildfires. Nationwide, each year, arsons cause serious damage to homes, 
wilderness areas and too many deaths. In 2006, 31,000 arsons were 
reported across the country, which resulted in 305 deaths and $755 
million in property loss. It is for this reason that it is critical 
that we give law enforcement and firefighters the tools to quickly and 
efficiently investigate arsons and prevent future acts of arson from 
occurring.
    The MATCH Act would create a national arson registry and would 
require convicted arsonists to report where they live, work and go to 
school. The database would include finger and palm prints of the 
arsonist, a recent photograph, vehicle information, criminal history 
and other relevant information. The length of time that a convicted 
arsonist would be required to register is based on how many acts of 
arson they have committed--5 years for one offense, 10 years for two 
offenses and lifetime for a serial arsonist who committed three or more 
offenses,. The information would only be made available for law 
enforcement agencies and other relevant personnel and not the general 
public. Most important, when a convicted arsonist updates his or her 
information with a change of residence, notification would be sent to 
the appropriate law enforcement agencies.
    When an arson has occurred, it is critical to quickly find the 
individual involved to prevent future acts of arson and prosecute the 
individual responsible. Frequently arsonists use the same trademark 
tools--such as a unique incendiary device, a manner of starting a fire, 
or similar targets, such as houses of worship, or auto dealerships. In 
a case where the arsonist may have come from another jurisdiction or 
state to commit the act of arson, the information in the database will 
give law enforcement an important tool to identifying convicted 
arsonists that may be connected to very similar acts of arson.
    The national registry created by the MATCH Act will build on the 
Bureau of Alcohol, Tobacco, Firearms and Explosives' (ATF) Bomb Arson 
Tracking System--or BATS. In 2004, the Attorney General consolidated 
all of the Justice Department's arson and explosives incident databases 
into a single database, based on the BATS model. This has helped 
jurisdictions collect and share information, which has also improved 
the accuracy and detail of reporting.
    The MATCH Act's national arsonist registry will improve the BATS 
database by providing more extensive information about convicted 
arsonists. This information will help law enforcement investigating 
arsons by being able to quickly search a palm print, a trademark 
arsonist feature such as an incendiary device, arsonists living in a 
particular neighborhood, and other key information that could provide 
clues in an investigation. Most importantly, the registry can also 
prevent future acts of arson by requiring convicted arsonists to update 
their information when they move or change schools or jobs. In addition 
to putting law enforcement on notice, this also lets the convicted 
arsonists know that they can't hide from law enforcement for the 
purpose of committing another act of arson.
    Our community came together to fight the fires we saw in 
California. Firefighters from across the state were joined by the 
National Guard, the Army, and firefighters from the Mexican cities of 
Tijuana and Tecate. The quick and united response was immensely 
important, and now it is ever more important for us to ensure that such 
tragedy never strikes again. I believe that the national registry 
created by the MATCH Act and its notification requirements are 
important tools to prevent future acts of arson and assist in the 
investigation of arsons that have occurred.
    Thank you again Mr. Chairman for this opportunity to testify on 
this legislation.

    Mr. Scott. Thank you.
    Mr. Pansini?

                  TESTIMONY OF TRACY PANSINI, 
              BURBANK FIRE DEPARTMENT, BURBANK, CA

    Mr. Pansini. Mr. Chairman, thank you for inviting me to 
provide testimony in support of H.R. 1759, the ``Managing Arson 
Through Criminal History,'' the ``MATCH Act of 2007.''
    As you know, my name is Tracy Pansini, and I am currently 
the fire chief for the city of Burbank and hold some other 
titles as well.
    The MATCH Act could not have come at a better time, and I 
thank Bill for actually introducing it to Congresswoman Bono. 
The legislation is great. It couldn't have come at a better 
time, when the ever-so-vibrant images of California burning 
dominate the media landscape.
    This apocalyptic portrait of mesmerizing flames dancing 
from home to home has caused more than $1 billion in damage. 
Much of Southern California is ablaze, similar to what we saw 
in Texas and Oklahoma this year.
    We have seen this before in Florida, Colorado, Arizona, 
Montana, Utah, just to name a few States. Some of the largest 
wildland fires have been related to arson.
    As you have stated earlier, the Santiago fire continues to 
burn in Orange County where 26 homes have been destroyed, 
28,000 acres. More than $10 million has been spent just on 
suppression costs alone.
    Families have been displaced. Families live in a 
supermarket parking lot with their children's pillows resting 
on asphalt soaked--full puddles of motor oil; the Buckwheat 
fire, Santa Clarita--35,000 acres, 26 homes. One individual 
lost his life trying to protect his home and his life and his 
valuables--both confirmed arson related.
    The focus of an investigation for one of San Diego's fires 
is a convicted arsonist from Missouri. We know that an 
individual that committed an act of arson is likely to commit a 
future act.
    Maybe if we had this information about the Missourian 
available in a national database similar to the MATCH Act, we 
could have prevented the conflagration that has currently 
consumed 2000 homes and displaced 500,000 people.
    Many returned to a nuclear wasteland of entire streets 
consumed, autos turned into balls of blackened metal, home 
after home--30 on one street alone I counted as I toured the 
area--reduced from places of love, mementos and family 
heirlooms to blackened concrete, charred rubble, twisted metal, 
blanketed with gray and white ash.
    This legislation is an extremely important vehicle to help 
us track arsonists nationally. Knowing that a convicted 
arsonist moved into Burbank would help us in an investigation 
of an arson fire.
    The MATCH Act would also allow us to proactively screen 
local movement of arsonists. It would link disparate dates and 
events with the human element at the local, State and Federal 
level.
    It will be a tool to strengthen the relationships of 
evidence with people, events and capabilities. It will help us 
connect the dots in the investigative phase.
    The increased need post-9/11 and other recent fires 
nationwide make the passing of this bill critical. Generally, 
when it gets too hot for arsonists, they move to other areas. 
It is extremely important for investing agencies to know when 
these arsonists relocate to other areas.
    We had a rash of 40 carport fires that spanned numerous 
jurisdictions, damaged many apartment buildings and displaced 
families. The arsonist had relocated from the Flatbush area of 
New York.
    The local law enforcement had identified him as an 
arsonist, so he relocated to the L.A. area to continue his 
craft. Had we been able to use MATCH, we would have caught him 
sooner, or maybe he would not have moved in the first place.
    Arson is being used as a terrorist tool, as Mr. Forbes 
stated, to negatively impact houses of worship, gang-related 
fire bombings and environmental issues.
    In 1996, Congress passed the Church Protection Act, which 
expanded the options available to prosecutors but did not 
provide any way of capturing the data and sharing the 
information on the incidents to local enforcement agencies.
    In October 2005 in Burbank, we experienced an arson fire in 
our foothills that consumed structures as well as the serene 
vegetation in Burbank, Glendale and Los Angeles.
    One day prior, another arson fire across the valley was 
started--Calabasas, California--that burned the community of 
Los Angeles City, Los Angeles County and Ventura County.
    Could the fires be related? As we are battling one fire, we 
can look across the valley and see the smoke header from the 
other fire.
    As a young fire captain, I remember chasing numerous fires 
set in trash cans littering the alleys of Burbank. The 
arsonists always use the same device and perfect it under our 
noses.
    That arsonist was the infamous John Orr, who went on to 
burn up 64 homes in Glendale, kill six in a South Pasadena 
fire, destroy the Waltons set on Warner Brothers' backlot and 
burned businesses in all the surrounding communities.
    He went on to start hundreds of fires in the cities across 
California. John had a 10-year run before being caught. Then 
and now, there was nothing in place to track the information 
across jurisdictions.
    We need all of your support in passing this important 
legislation. Disaster volunteers, arson patrols and vigilant 
enforcement are not enough. We need the MATCH Act.
    That concludes my testimony, and I would like to thank you, 
Mr. Chairman, for allowing me to provide the testimony in 
support of this important legislation.
    [The prepared statement of Mr. Pansini follows:]

                  Prepared Statement of Tracy Pansini

    Mr. Chairman, thank you for inviting me to provide testimony in 
support of H.R. 1759, the Managing Arson through Criminal History 
(MATCH) Act of 2007.
    My name is Tracy Pansini and I am a veteran firefighter with 28 
years of experience. Currently, I am the Fire Chief for the City of 
Burbank, California. Also, I am the vice president of Foothill Fire 
Chiefs Association and the California, Office of Emergency Services 
(OES) ``Area C'' coordinator. As coordinator, I represent 11 
jurisdictions.
    The MATCH Act could not have come at a better time when the ever so 
vibrant images of California burning dominate the media landscape. In 
an apocalyptic portrait of mesmerizing flames, dancing from home to 
home, that has caused more than 1 billion dollars in damage. Much of 
Southern California is ablaze, similar to what we saw in Texas and 
Okalahoma this year, Florida, Colorado, Arizona, Montana, Utah and many 
other states.
    Some of the largest wildland fires have been related to arson. The 
massive ``Santiago Canyon'' fire continues to burn in Orange County 
where 26 homes have been destroyed and 28,000 acres scorched. More that 
10 million dollars have been spent so far on just suppression. Families 
living in a supermarket parking lot with their children's pillows 
resting on asphalt soaked in puddles of motor oil. The ``Buckweed'' 
fire in Santa Clarita burned 35,000 acres and destroyed 26 homes and 
took the life of one resident. All confirmed arson related.
    Criminals and arsonists anticipate the wind and they want to come 
out and do their thing. An out-of-state man is the focus on an 
investigation for one of San Diego's fires. It is reported that a 
resident arsonist from Missouri is the focus of the investigation. An 
email was sent to local fire departments suggesting that a person of 
interest was a convicted arsonist in Missouri. Maybe if we had this 
information available in a national database similar to the MATCH Act 
we could have prevented the conflagration that has currently consumed 
2,000 homes.
    What awaited many as they were allowed to return was what seemed to 
be a nuclear wasteland of entire streets consumed, autos turned into 
balls of blackened metal, the only thing left standing were the 
concrete chimneys that looked like dominos lined up and unsupported. 
Home after home--30 on one street alone--reduced from places of love, 
pictures, mementos and family heirlooms to blackened concrete, charred 
rubble and twisted metal blanketed with grey and white ash.
    Currently, we don't have any vehicle to track arsonists on the 
national level or state level for that matter. This is extremely 
important legislation to help us track arsonists nationally. Knowing 
that a convicted arsonist moved into Burbank would assist in an 
investigation of an arson fire. The MATCH Act would allow us to 
proactively screen local movement of arsonists. It has the unique 
ability to link disparate dates and events with a human element at the 
local, state and federal level. It will be a tool and part of a system 
that can be used to strengthen the relationships of evidence with 
people on events and capabilities. It is natural to look to enhance it 
with other information of relevance to help us connect the dots in the 
investigation phase. The increased need post 9/11 and our recent fires 
nationwide make the passing of this bill critical.
    An individual that committed an act of arson is likely to commit a 
future act. If we had the MATCH type of data base in place, we would 
have had the opportunity to find a prolific arsonist. He always used 
the same device as most arsonists do and perfected it under our noses. 
As a young fire captain, I remember chasing numerous fires set in trash 
cans littering the alleys of Burbank. I gave the device to our 
investigator, but, then as now, there was nothing in place to track the 
information with a human component. That arsonist was the infamous John 
Orr who went on to burn up 64 homes in Glendale, kill six in the Ole's 
Home Improvement fire in South Pasadena, destroy the Walton set on the 
Warner Brothers lot and burn business in all the surrounding 
communities. He went on to start hundreds fires in cities from central 
California to Southern California along the I-99 interstate. PBS did an 
hour long television show ``Hunt for the Serial Arsonist'' tracking 
Orr. HBO did an original movie ``Point of Origin'' based on the Joseph 
Wambaugh book about John Orr. John probably had a ten year run before 
being caught. It would help to have a data base. Then and now we use 
our network skills, but that is limited at best.
    Generally, when it gets too hot for arsonists, they move to other 
areas. It is extremely important for investigating agencies to know 
when arsonists relocate to another area. We had a rash of 40 carport 
fires that spanned numerous jurisdictions and damaged many apartment 
buildings and displaced families. The arsonist had relocated from the 
Flatbush-area of New York. The local law enforcement had identified him 
as an arsonist so he relocated to the Los Angeles-area to continue his 
craft. Had we been able to use MATCH, we would have caught him sooner, 
or maybe he would not have moved in the first place.
    Arson is the leading cause of fire in the United States. Arson 
fires are very costly in terms of human casualties and direct dollar 
loss. According to the U.S. Fire Administration, ``Each year, an 
estimated 267,000 fires are attributed to arson, which result in 1.4 
billion in property loss and cause over 2,000 injuries and 475 
deaths.'' Locally, our arson fires account for 30% to 40% of our fire 
total. I Googled the term ``Arson Fire'' and received 420,000 sites.
    In addition, arson is being used as a terrorist tool to negatively 
impact houses of worship, gang related fire bombings, and environmental 
terrorism. In 1996, Congress passed the ``Church Arson Prevention 
Act,'' which expanded the options available to prosecutors, but did not 
provide any way of capturing the data and sharing the information on 
the incidents to local enforcement agencies.
    Some acts of Arson are politically motivated. For example, here in 
Southern California, an environmental group, known as the Earth 
Liberation Front (ELF), committed arson to spread their message of 
protecting the environment. The ELF group fire bombed auto dealerships 
who sold poor gas mileage vehicles. Many dealerships were destroyed 
causing economic disruption to local cities.
    As a result here in Burbank, as in many other communities, we have 
initiated an ``Arson Watch'' program. We have trained our community 
disaster volunteers (CDV) in what to look for and where to patrol. In 
October 2005, we experienced an arson fire in our foothills that 
consumed structures and vegetation in Burbank, Glendale and Los 
Angeles. One day prior, across the valley another arson wildland fire 
was started in Calabasas, Calif. That burned in the communities of Los 
Angeles City, Los Angeles County and Ventura County. Could the fires be 
related?
    We need all of your support in passing this important legislation. 
Disaster volunteers, Arson Patrols and Vigilant enforcement are not 
enough. We need the MATCH Act!!!
    Mr. Chairman, thanks again for allowing me to provide testimony in 
support of this important legislation.

  TESTIMONY OF WILLIAM SOQUI, FIRE CHIEF, CATHEDRAL CITY FIRE 
                 DEPARTMENT, CATHEDRAL CITY, CA

    Mr. Soqui. Thank you, Chairman Scott, Ranking Member 
Forbes, Members of the Subcommittee.
    Thank you for the opportunity to come before you, the 
Subcommittee on Crime, Terrorism and Homeland Security and 
testify regarding H.R. 1759, ``Managing Arson Through Criminal 
History Act of 2007,'' which was introduced on March 29, 2007 
by Congresswoman Bono and Congressman Schiff.
    I come to you today as a certified fire investigator in the 
American fire service, a California fire chief of a municipal 
fire department and a member and representative of the 
Riverside County Fire Chiefs Association, whose members 
represent one of seven counties in Southern California that was 
recently ravaged by the wind event and firestorm and which is 
currently under local, State and Federal disaster declarations.
    The story of fire is older than man, and when harnessed and 
used appropriately it has proved beneficial in providing 
shelter, comfort and a source for preparing food for 
consumption.
    My testimony today is not about the beneficial uses of fire 
but the misuse in the criminal act of arson which can kill and 
terrorize people, threaten and destroy property, and damage or 
destroy ecosystems and the environment.
    Currently, two fires--the Santiago fire in Orange County 
and the Buckweed fire in Los Angeles County--have been 
determined to be the result of arson. Although some of the 
causes of the recent fires have been determined, others are 
still being investigated.
    Last year, on October 26, 2006, a vegetation fire was 
reported near the streets of Esperanza and San Gorgonio in the 
southeast section of an unincorporated community of Cabazon in 
Riverside County.
    This arson fire quickly grew to several hundreds of acres 
in the following hours, overtaking and killing five United 
States Forest Service firefighters.
    For a long time the perception of much of the general 
public is that arson is a victimless crime amounting to paper 
losses to be covered by an insurance companies.
    The reality is that arson is a crime that affects everyone, 
by increasing insurance premiums, blighting our neighborhoods, 
killing hundreds annually, and physically and emotionally 
scarring the victims of fire.
    Nationally, arson is the leading cause of fires in the 
United States and the second leading cause of death from fire. 
An estimated 31,000 intentionally set structure fires occurred 
in 2006.
    Twenty percent of arson fires involve vehicles, 30 percent 
involve structures and 50 percent occur outdoors.
    Intentionally set fires in structures resulted in 305 
civilian deaths. Intentionally set structure fires resulted in 
over $755 million in property loss and 20,500 intentionally set 
vehicle fires occurred.
    Arson fires accounted for 24 percent of residential fires 
in metropolitan areas and were the leading cause of residential 
fires.
    In 1972 a study was commissioned to study the reasons that 
the richest and most technologically advanced nation in the 
world would lead all the major industrialized countries in per 
capita deaths and property losses from fires.
    It was written in 1974 and titled ``America Burning.'' The 
study led to the establishment of the United States Fire 
Administration and the National Fire Academy and a lot of 
technological advances in firefighting equipment and data 
collection.
    Unfortunately, many of the issues identified and presented 
in the document still persist some 33 years afterwards.
    There are many and varied reasons for fire-setting--
vandalism, spite, revenge, intimidation, concealment of another 
crime, economic motives, civil disorder, gang initiation, 
excitement, suicide and murder.
    Spite and revenge have been ranked the leading motive 
behind incendiary fires. Because they are targeted at people 
and not just buildings or physical objects, these fires tend to 
be the most dangerous in terms of casualties.
    They are premeditated acts committed by both adult and 
adolescent fire-setters. Juveniles account for 50 percent to 55 
percent of the arrests nationally of intentionally set fires.
    Fires are set for sport, for vandalizing property. They are 
ranked high as a motive, and juveniles are responsible for a 
majority of these.
    Additionally, juveniles participating in criminal gang 
activity have often resorted to violence to accomplish their 
goals. The violence stems from their objective to obtain power, 
control and respect.
    Fire does not respect geographic boundaries and neither do 
arsonists. Modern life allows us to travel across 
jurisdictional boundaries between States in a matter of 
minutes.
    Southern California is served by seven major airports, 
allowing easy access and convenience. The states of Arizona, 
Nevada, Oregon, New Mexico, Washington and Utah are accessible 
to Southern California in less than 90 minutes by airplane.
    The Federal Bureau of Investigation Uniform Crime Reporting 
in 2004 indicates a conviction rate of only 17.1 percent 
nationwide.
    Across the United States, the U.S. Department of Justice, 
in their sourcebook of 2003, collected recidivism rates from 15 
States. Within 3 years of their release, 57.7 percent of 
convicted arsonists were rearrested, 41 percent were 
reconvicted, and 38.7 percent returned to prison with or 
without a new prison sentence.
    Currently, only three States maintain arson registries. 
They are California, Illinois and Montana. Unfortunately, in 
2007, America is still burning.
    The MATCH Act registry will provide stronger links among 
public safety agencies, links that are needed to reduce the 
incidence of arson, thus saving lives, property and the 
environment.
    The MATCH Act will serve as a valuable tool to aid the men 
and women who serve in our fire and law enforcement agencies 
and are engaged in the process of identifying, locating, 
apprehending, convicting and tracking these modern-day criminal 
terrorists attempting to escape justice and who seek sanctuary 
across State lines.
    Thank you for the opportunity to provide testimony.
    [The prepared statement of Mr. Soqui follows:]

                 Prepared Statement of William M. Soqui

Chairman Scott and Ranking Member Forbes and Members of the 
Subcommittee:
    Thank you for the opportunity to come before you, the subcommittee 
on Crime, Terrorism, and Homeland Security and testify regarding H.R. 
1759, Managing Arson Through Criminal History Act (MATCH) of 2007 
introduced on March 29, 2007 by Congresswoman Mary Bono and Congressman 
Adam Schiff.
    I come to you today as a Certified Fire Investigator in the 
American fire service, a California Fire Chief of a municipal Fire 
Department and a member and representative of the Riverside County Fire 
Chiefs Association whose members represent one of the seven counties in 
Southern California that was recently ravaged by the wind event and 
firestorm and which is currently under local, state and federal 
disaster declarations.
    The story of fire is older than man and when harnessed and used 
appropriately it has proved beneficial in providing shelter, comfort 
and a source for preparing food for consumption.
    What I will testify to today is not the beneficial uses of fire but 
the misuse in the criminal act of arson which can kill, and terrorize 
people, threaten and destroy property and damage or destroy ecosystems 
and the environment.
    Currently, two fires (the Santiago Fire in Orange County and the 
Buckweed Fire in Los Angeles County) have been determined to be the 
result of arson. Although some of the causes of recent fires have been 
determined, others are still being investigated.
    Last year, on October 26, 2006, a vegetation fire was reported near 
the streets of Esperanza and San Gorgonio in the southeast section of 
the unincorporated community of Cabazon (Riverside County). This arson-
caused fire quickly grew to several hundreds of acres in the following 
hours overtaking and killing five US Forest Service firefighters.
    For a long time the perception by much of the general public is 
that arson is a victimless crime amounting to paper losses to be 
covered by insurance companies. The reality is that arson is a crime 
that affects everyone, by increasing insurance premiums, blighting our 
neighborhoods, killing hundreds annually, and physically and 
emotionally scarring the victims of fire.
    Nationally,

        <bullet>  Arson is the leading cause of fires in the United 
        States and the second leading cause of death from fire (the 
        first cause is careless smoking).

        <bullet>  An estimated 31,000 intentionally set structure fires 
        occurred in 2006.

        <bullet>  20% of arson fires involve vehicles, 30% involve 
        structures and 50% occur outdoors.

        <bullet>  Intentionally set fires in structures resulted in 305 
        civilian deaths.

        <bullet>  Intentionally set structure fires also resulted in 
        $755,000,000 in property loss.

        <bullet>  20,500 intentionally set vehicle fires occurred, a 
        decrease of 2.4% from a year ago, and caused $134,000,000 in 
        property damage, an increase of 18.6% from a year ago.

        <bullet>  Arson fires accounted for 24% of residential fires in 
        metropolitan areas and were the leading cause of residential 
        fires.

    In 1972 a landmark study was commissioned to study the reasons that 
the riches and most technologically advance nation in the world would 
lead all the major industrialized countries in per capita deaths and 
property loss from fire. It was written in 1974 and titled ``America 
Burning.'' The study led to the establishment of the United States Fire 
Administration (USFA) and the National Fire Academy (NFA) and too many 
technological advances in firefighting equipment and data collection. 
Unfortunately many of the issues identified and presented in the 
document still persist 33 years after it was written. The National Fire 
Protection Association in 1971 classified about twenty five percent of 
fires as unknown or incendiary. Twenty six percent of large loss school 
fires were classified as incendiary and forty four percent of large 
loss church losses were classified as incendiary.
    In 1994, according to the National Fire Incident Reporting System 
(NFIRS), approximately 1/3 of all fires in the United States were 
classified as arson (incendiary or suspicious) making it the leading 
cause of fire. In comparison the second leading cause open flames only 
made up 12 percent of all fires.
    Motivations for Firesetting
    People set fires for varied and complex reasons. For criminals 
prosecuted for crimes where there is direct evidence, motive is often a 
secondary consideration and is not necessarily crucial for conviction. 
But because arson is a clandestine crime where witnesses are rare and 
some or most of the direct evidence burns in the fire, motive becomes a 
critical element in prosecuting firesetting cases.
    The most common motives behind firesetting are:

         1. Vandalism

         2. Spite and revenge

         3. Intimidation

         4. Concealment of another crime

         5.  Economic motives, include insurance fraud, debt removal, 
        direct monetary gain, elimination of unwanted ownership, land 
        assembly for development, and removal of business competition

         6. Civil disorder and hate related crime

         7. Gang initiation

         8. Excitement

         9. Suicide

        10. Murder

    Spite and revenge has been ranked the leading motive behind 
incendiary fires. Because they are targeted at people and not just 
buildings or physical objects, these fires tend to be the most 
dangerous in terms of casualties. They are premeditated acts, committed 
by both adult and adolescent firesetters.
    Juveniles account for 50-55% of arrests in intentionally set fires. 
Fires set for the sport of vandalizing property was ranked high as a 
motive, and juveniles are responsible for the majority of these. 
Additionally, juveniles participating in criminal gang activity often 
resort to violence to accomplish their goals. This violence stems from 
their objective to obtain power, control and ``respect.''
    Fire does not respect geographic boundaries and neither do 
arsonists. Modern life allows us to travel across jurisdictional 
boundaries between states in a matter of minutes. Southern California 
is served by seven major airports allowing easy access and convenience. 
The states of Arizona, Nevada, Oregon, Washington, Utah are accessible 
to California in less than ninety minutes by airplane.
    The Federal Bureau of Investigation's Uniform Crime Reporting in 
2004 indicates the conviction rate for arsonists is 17.1% nationwide. 
According to the United States Dept. of Justice, Bureau of Justice 
Statistics Sourcebook of 2003 collected data regarding recidivism from 
15 states. Within three years of their prison releases, 57.7% of 
convicted arsonists were rearrested, 41.0% were reconvicted, and 38.7% 
returned to prison with or without a new prison sentence.
    Currently only three states maintain Arson Registries. They are 
California, Illinois and Montana. Unfortunately in 2007, America is 
still burning.
    The MATCH Act registry will provide stronger links among public 
safety agencies; links that are needed to reduce the incidence of 
arson, thus saving lives, property and the environment. The MATCH Act, 
will serve as a valuable tool to aid the men and women who serve in our 
fire and law enforcement agencies, and are engaged in the process of 
identifying, locating, apprehending, convicting and tracking these 
modern day criminal terrorist attempting to escape justice and who seek 
sanctuary across state lines.
    Thank you for the opportunity to testify here today before the 
Subcommittee on Crime, Terrorism, and Homeland Security.

    Mr. Scott. Thank you. Thank you, Chief.
    I will now recognize myself for 5 minutes for questions and 
ask Ms. Bono, did I understand your testimony to say that you 
did not intend to have youth in the database?
    Mrs. Bono. That is correct.
    Mr. Scott. And is it your testimony that it is your 
intention that the access to the information only be law 
enforcement personnel?
    Mrs. Bono. Yes, Mr. Chairman.
    Mr. Scott. Okay.
    Mr. Soqui, you indicated that California already has a 
database.
    Mr. Soqui. That is correct.
    Mr. Scott. When there is an arson, how often does someone's 
name appear on that database?
    Mr. Soqui. I don't have a specific on the numbers of when 
it occurs. One of the problems, again, is sharing that database 
and being able to access it and, again, making sure that that 
person is only from the state of California.
    Mr. Scott. Have you had experience with the database in 
California?
    Mr. Soqui. Not specific to a conviction of somebody.
    Mr. Scott. How long has the database been in existence in 
California?
    Mr. Soqui. I can't answer that question for you.
    Mr. Scott. Chief Pansini?
    Mr. Pansini. I can't tell you the time line, but it is in 
our penal code system in California. But the problem is that 
when you relocate, it is only a misdemeanor, and so there is no 
teeth in the penal code itself to get arsonists to--when they 
relocate, to reenter into the system.
    And currently, mostly it is just used at the State level 
and a little bit at the county level.
    Mr. Scott. Can you access the entire California database?
    Mr. Pansini. We have to do it through our police department 
side.
    Mr. Scott. Can they access the database?
    Mr. Pansini. Yes, but the trouble here is that our police 
departments--they are tasked with crimes against people prior 
to crimes against property. So crimes against people take such 
a huge workload for them that they rarely get a chance to go 
after crimes against property.
    Mr. Scott. If there is a national database, why would there 
be any difference?
    Mr. Pansini. Because currently this database in this bill 
makes it--actually has teeth in it that has every agency that 
has access to it--how it currently works now in the state of 
California is our police department has to pull down that 
information, and they pull it down whenever they get the whim 
to do that.
    And then they have to walk it across the hall to the fire 
administration side to get somebody to look at it. That rarely 
happens, because they get so caught up, again, with crimes 
against people.
    But we have nothing in place right now--there is the BATS, 
the Bomb Arsonist Tracking System, but all it does is tracks 
the device and the incident itself. There is nothing that ties 
people in to product.
    Whether it is an IID or an IED, an incendiary device or an 
explosive device, there is not a human component to that.
    Mr. Scott. Well, if we pass this bill, what I am trying to 
get at is how will things be much better.
    Mr. Pansini. Because we will all have the capability to 
input information on personal arson that is in our 
jurisdiction, and how they use their devices and what their 
devices look like, and then that will be available to every 
fire department and law enforcement agency nationwide.
    Mr. Scott. You are not inputting that now in the California 
database?
    Mr. Pansini. We are not, no.
    Mr. Scott. What do you input now in the California 
database?
    Mr. Pansini. We put in nothing except the incident 
information itself into the National Fire Incident Reporting 
System, and that is all.
    Mr. Scott. Is that name----
    Mr. Pansini. It is called NFIRS.
    Mr. Scott. No, what do you put in, name, address and the 
fact that they were charged or convicted with arson?
    Mr. Pansini. No. None of that. Just the incident data 
itself.
    Mr. Scott. Not name?
    Mr. Pansini. No, sir.
    Mr. Scott. That is the California database.
    Mr. Pansini. It is actually now a national database.
    Mr. Scott. Okay. In California do you put the name in?
    Mr. Pansini. No, we don't.
    Mr. Scott. Not much of a database, is it?
    Mr. Pansini. No, sir. I hope that is why we are here, to 
get this in place.
    Mr. Schiff. Mr. Chairman, can I just clarify on one of the 
questions you asked in terms of youth?
    As I understand it--and we are working with your staff, I 
think, and Mary's as well on this--the bill, as it is currently 
drafted, refers to criminal arsonists, which is defined as 
people convicted of arson.
    I think what we found out from legal counsel is the way 
that that would be interpreted--is we have been trying to find 
out--does that mean a juvenile who is adjudicated in an arson 
case would be considered, does that mean only a juvenile who is 
treated as an adult would be considered, or does that mean only 
an adult would be would be considered.
    I think that the answer is that it depends on State law, 
that depending on what State you are in, the State could treat 
a juvenile who is adjudicated as a juvenile as a person 
convicted of arson.
    So the bill, as it is written, in some States I think 
currently does apply to juveniles, and the question that we 
would have to work with you on is should it, under what 
circumstances should juveniles that go in be able to get out 
or, you know, whatnot.
    But I think, to clarify further, that--I would think that a 
juvenile who is treated as an adult, who is waived into adult 
court, would be within the bill currently, and even juveniles 
who are adjudicated depending on whether that State considers 
that a conviction may also be included.
    Mr. Scott. I think you are right, and the question was 
designed to find out what the legislative intent was, and then 
we can go from there to make sure the language reflected the 
legislative intent.
    So the questions you have articulated we will be working 
on.
    The gentleman from Virginia?
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Scott. Excuse me. I would like to recognize the 
gentleman from North Carolina has joined us. Thank you.
    Excuse me.
    Mr. Forbes. Thank you, Mr. Chairman.
    And we want to, once again, thank all of you for being 
here.
    And Mary, you and Adam know we appreciate the work you have 
done. It is our customary procedure that we don't ask you many 
questions, so if you want to answer any of these other 
questions, just chime in.
    Chiefs, we appreciate what you do. I was amazed when I was 
hearing Adam talk about how you found out who had committed one 
of those crimes. It is amazing to me that you can trace that 
back to a pack of matches, you know, and do that. So we 
appreciate your work.
    One of the things that I would like to ask you about is the 
recidivism part of it, because obviously that is a key to a lot 
of our databases. Is there a huge recidivism component?
    And, Chief, I think you mentioned that 57.7 percent of 
arsonists were rearrested.
    Mr. Soqui. That is correct, and that is based on a study 
that was done by the Department of Justice.
    Mr. Forbes. Are they rearrested for arson or for just some 
other crime?
    Mr. Soqui. It is all of the above. Some are rearrested and 
reconvicted for arson. Others have other issues that they 
violate their parole or end up back in prison.
    Mr. Forbes. And help me with this one, because I know one 
of the things we look at is--certainly with sexual offenders, 
we know there is a huge recidivism rate that takes place.
    But I was listening to your testimony when you went down 
the common motives, and you mentioned vandalism, spite and 
revenge, intimidation, concealment of another crime, economic 
motives, civil disorder, gang initiation, suicide and murder.
    I left out excitement, because of all of those, the 
excitement part is probably the one that would be most leaning 
toward some sort of recidivism. The other things don't always 
have that connectivity between there.
    What has been your experience in terms of the recidivism 
that you see with arsonists? What causes that recidivism and 
how large is it?
    Mr. Soqui. I don't have the information. I can only relate 
it to you anecdotally. There was actually another study that 
was done about people who are incarcerated and whether there 
was a history of fire-setting, and there was a large 
relationship between fire-setting and persons that were 
incarcerated.
    There is a whole dynamic on the psychology of fire-setting. 
The one that we talk about, again, is spite, revenge. And that 
is probably the most dangerous, because it actually targets a 
person, whether it is in an occupied structure or in an open 
area.
    Mr. Forbes. But has it been your experience that they use 
arson for spite and revenge on one individual, and if they do 
it on one individual, they will do it on another individual at 
another time? Has that been just your anecdotal experience?
    Mr. Soqui. I think it depends on--you know, each person has 
different motivation. And again, Chief talked about John Orr. 
His was, again, hero worship and those kinds of things.
    Mr. Forbes. One of the things that could help us that you 
could submit just for the record at some point is any 
information you have, even if it is anecdotal information, 
about the recidivism component of it, because obviously that is 
one of the things that drives us to these databases.
    If having information on previous crimes gives us some sort 
of predictability on future crimes, it makes it a lot more 
helpful to have the database.
    The other question I would ask--in your experience, how 
many fires and what percentage of them are done by juveniles, 
because that was a question that came up. Do you have a feeling 
for that?
    Mr. Pansini. About 58 percent of arson fires as expressed, 
I believe, on Channel 7 recently, is juvenile fire-setters.
    Mr. Forbes. So if we really want to make this accurate, you 
are going to need to have a picture of the juveniles that are 
involved.
    Mr. Soqui. I think the one thing that is confusing is there 
is a very low conviction rate, you know, down in the 15 
percent, 16 percent. Now, again, when you clear on a UCR form, 
the uniform crime reporting, you have to make an arrest.
    And I think that the high percentage of arrests occur with 
juveniles, that 50 percent to 55 percent, so it is not really a 
metric that applies.
    It has to do with sophistication, age, whether they are 
talking to their peers. Those kinds of things tend to lead to 
more arrests of juveniles. But again, the metric doesn't apply.
    Again, a more sophisticated arsonist--again, Chief referred 
to John Orr. It took 10 years to capture him. But again, he is 
a much more sophisticated--and doing it for a different reason.
    Mr. Forbes. The 17.1 percent conviction rate that I think 
you used in your testimony--why is it so low? What causes the 
conviction for arsonists' cases?
    Is it detecting who they are? Is it getting evidence? What 
have you found to be the difficulty?
    Mr. Pansini. We just experienced a $12.5 million arson fire 
with explosion as well, and a lot of the evidence is destroyed. 
And it went so far that flammable liquids were used to do it in 
multiple starts.
    But when we went to court--and we never made it to court 
because we didn't have enough, but we used a chainsaw overhead 
to cut open the roof, and that is how we vent the hot gases and 
stuff, and it allows us to go inside to do the firefight.
    Well, because that chainsaw uses oil and uses gasoline to 
fuel the chain, therefore they had to rule out the one hit down 
into the drain on flammable liquid. So it is extremely 
difficult to prosecute an arsonist because of that.
    We also had a point in time where we had the arsonists and 
they physically went out to a gas station that had a camera. 
They were seen filling up gasoline cans on camera and then 
driving away.
    And then we caught them as they torched up a restaurant 
that was on the hill, and we estimated there was probably 10 
gallons of fuel, exactly what they filled up.
    We couldn't prosecute them even though they smelled like 
gasoline, they had empty cans, because they stated that they 
went to the gas station--their car was empty.
    So it is extremely difficult. But there is a propensity for 
junior fire-setters to manifest to adulthood, and it is 
different tendencies.
    It starts sometimes with cruelty to animals. Then it 
manifests into fires and things of excitement. And it goes on 
through life, and they continue to burn.
    Mr. Forbes. Well, my time is up, but basically that is what 
we want to try to find out. You have seen a pattern from 
juveniles in doing this and as they get to be adults--a pattern 
that you need to be able to track.
    Also, do you see a pattern from starting smaller fires and 
then building up to larger fires if they continue down their 
arsonist career, or is that----
    Mr. Pansini. Absolutely, because their excitement gets 
larger and bigger.
    If you get juveniles young enough, and you get some 
intervention programs going on, and you continue to work with 
them, you can have a success to divert them from an adult arson 
career.
    Mr. Forbes. Thank you all.
    Mr. Chairman, I yield back.
    Mr. Scott. Thank you.
    The gentleman from Georgia?
    Mr. Johnson. Thank you.
    Many of my questions have been answered, and I hope I won't 
be duplicitous. And I am having trouble understanding the 
rationale for instituting a nationwide database.
    I understand that if you do this database, then it would 
perhaps deter convicted arsonists from engaging in future arson 
because they know that they would be suspected of future arson, 
is that fair to say?
    Mr. Soqui. I think that is fair to say. I think the other 
issue is, again, just the easy access between jurisdictions. It 
is just easy to move from one area to another, and this would 
allow us to have that information in a database and access it.
    Mr. Johnson. Is there any empirical data that would suggest 
that arsonists tend to move between jurisdictions?
    Mr. Soqui. I would again take the example that Chief 
Pansini had, which had to do----
    Mr. Johnson. And I know that there will always----
    Mr. Soqui. Right.
    Mr. Johnson [continuing]. Be examples, but have there been 
any studies that would suggest that arsonists tend to move 
between States?
    Mr. Pansini. I don't believe so, but because we have 
nowhere to track the data it would be hard to come up with a 
conclusion.
    Mr. Johnson. Let me ask this question. Have there been any 
studies that suggest that arson, like, say, sexual offenders, 
is an action that will definitely be repeated in the future by 
an arsonist?
    In other words, what is the--are there any studies that you 
can show us which would prove or indicate that a convicted 
arsonist is bound to be an arson recidivist?
    Mr. Soqui. I think the information that I referred to in my 
testimony--again, it is done from 2003 and covers 15 States--
again, showed that within 3 years of their prison release, 57.7 
percent of convicted arsonists were rearrested.
    Mr. Johnson. For some reason, not necessarily arson.
    Mr. Soqui. Correct.
    Mr. Johnson. But would there be anything that would show 
that an arsonist who has been convicted of committing that 
offense is predisposed and likely to commit that offense again, 
just some kind of a psychological compulsion, much as child 
molesters or sexual predators?
    Is there any studies that can make that link that you know 
of?
    Mr. Soqui. I am not aware of any specifically. I think the 
issue is specifically, you know, what is it that caused them to 
commit the arson.
    Again, whatever the reason was to do it--if there was a 
gang initiation, it may have been a single event. If it is----
    Mr. Johnson. Are there any studies that would break down 
the motivations for committing arson and would state the 
proportions of those who do it for some kind of compulsive 
reason, or gang initiation, or some other reason?
    Are there any studies that would tend to break down data 
and be able to be helpful to us as we consider this 
legislation?
    Mr. Soqui. I think we would have to look--again, you have 
to remember the numbers go backwards, which is there is a very 
small conviction rate, so that gives you only a certain 
percentage that you can study based on that information.
    I am not familiar with a specific study. I will be happy to 
look into it and see if we can't get something back to you.
    Mr. Johnson. Well, okay. Well, let me ask, then, it seems 
to me that--okay. If this database--I mean, are you saying that 
it would predict--just due to the fact that a person is on the 
database, would that be a predictor that they would engage in 
arson again or they are about to engage in arson?
    Mr. Soqui. I think what it does is it is another resource. 
It is another tool. If you are in a situation where you know 
that nobody knows what it is that you are doing, then you are 
less likely to be convicted.
    If there is a resource that is available to us that would 
allow us to track a person based on a previous history of fire-
setting, it would, again, narrow the field as to the people 
that we could look at for those crimes.
    Mr. Johnson. So regardless of one's motivation in 
committing an arson, if they commit an arson for any reason, 
their name is going to go on the database, and it would be 
regardless of whether or not the arson was just for fun, or 
whether or not it was to try to kill somebody, or whether or 
not it was committed by a teenager.
    It is going to go on the database. That person is going to 
go on the database.
    Mr. Soqui. I think what we talked about, again--it was, 
again, to exclude juveniles from it, so I don't know that a 
teenager would apply. It would depend on the jurisdiction and 
why they were convicted.
    Again, I think it is--you have to remember the big picture, 
which is, again, this is the leading cause of fire in the 
United States, is people committing arson.
    We are looking at the specifics of why the arson was 
committed. And again, it is a very small number of people that 
are ever even convicted of the crime because of the issues that 
were mentioned, the difficulty in obtaining forensic evidence 
and prosecuting somebody.
    Mr. Johnson. And now the information that would be kept on 
the data registry--it would be available to any organization, 
company or individual who requests the information?
    Mr. Pansini. No, it is only available to law enforcement 
and fire agencies.
    Mrs. Bono. If I might add to that, too, in the draft--the 
legislation we introduced, we have already agreed that we would 
make changes, that the language is too vague and we would 
specify only law enforcement--fire investigators, law 
enforcement would only have access to the database.
    Mr. Johnson. So it would not be publicly accessible.
    Mrs. Bono. That is correct.
    Mr. Johnson. Okay. Thank you.
    Mr. Scott. Thank you.
    Mrs. Bono. Excuse me, Mr. Chairman. Can I just add one 
thing, if I might, to that?
    Mr. Scott. Yes, just go ahead. I am sorry.
    Mrs. Bono. Thank you. Just when you asked about studies, I 
just have one statistic on recidivism rates.
    In 2000, the number of arsonists paroled in California was 
173. Within 1 year of parole, 69 of those, or 39 percent, had 
reoffended. And within 2 years, 93, or 58 percent, had 
reoffended.
    Mr. Johnson. By committing another arson?
    Mrs. Bono. Yes. So I don't know about studies, but these 
statistics are very clear on recidivism rates. They are quite 
high.
    And you know, there is also--has to be a difference between 
the courts--between understanding, as in the recent fire in 
California--one of the fires in Santa Clarita was started by a 
boy who was playing with matches.
    And certainly, I think the way the court would handle 
that--I am not a lawyer, but the way the court would handle 
that--not only that, the court of public opinion certainly 
looks differently on that.
    As to the Esperanza fire last year, which was committed, 
ironically, the same--I guess the pack of cigarettes where the 
match is inserted into the cigarettes or wrapped around seems 
to be a frequent tool that they use.
    And I think just those two differences, obviously, would be 
looked at by the court and handled by the court, I would 
assume, and make a difference in the database at the end.
    Mr. Johnson. Well, I would be interested in seeing that 
data that you just shared with us, so I will have my staffer to 
get with your person, and we will see about that.
    Mrs. Bono. Thank you very much.
    Mr. Johnson. Thank you very much.
    Mr. Scott. Thank you.
    The gentleman from North Carolina?
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you all with us.
    Mr. Chairman, a year ago--almost a year ago to the day--the 
building that housed one of the largest senior high schools in 
my district was destroyed in a fire. Arson investigation 
continues to this day. And I was invited to visit that campus 
last week.
    That incident almost destroyed that community emotionally. 
They recovered and they are doing well. I know of--few persons, 
if any, Mr. Chairman, in my opinion, are any more insufferable 
than those who intentionally set fires that result in property 
damage and loss of life.
    And I commend you all for your efforts in tracking them 
down. And I hope we are able to get the one who did it back 
home as well as the California fires as well.
    Chief Soqui--how do you pronounce that?
    Mr. Soqui. It is Soqui, sir.
    Mr. Coble. I wasn't even close.
    Mr. Soqui. You were close.
    Mr. Coble. Chief Soqui, the fires in Southern California 
are estimated to cost over $1 billion. Concerns are already 
being raised about what, if any, insurance coverage victims 
will receive.
    In your experience, are the victims able to recover and 
rebuild with their insurance, or do often times they face 
substantial out-of-pocket costs as well?
    Mr. Soqui. I think it is based, again, on the policy that 
you have and how high their deductible is. Most people are able 
to recover their costs through fire insurance.
    But again, it is not a victimless crime in that you and I 
end up paying for it in the end. Our insurance prices are going 
to increase to cover those losses.
    Mr. Coble. Yes.
    Chief Pansini, how many arson fires in your area have you 
identified as acts of ecoterrorism? And is this becoming a more 
prevalent problem?
    Mr. Pansini. We experienced the ELF with a series of fire-
bombings in auto dealerships that sold cars that were of poor 
gas mileage. And they burned about five auto dealerships, which 
had a direct impact to the sales tax of those local 
communities.
    Mr. Coble. Well, as you point out, Chief, all of us pay for 
this, and these people often times are given a pass.
    So again, I commend you all for what you do.
    Mr. Chairman, I thank you and Mr. Forbes for having called 
this hearing and I yield back.
    Mr. Scott. The gentleman from California, Mr. Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman. I am not 
sure I have any questions. I just want to say I think this is a 
very worthy bill.
    I don't know why there is any opposition to it. In 
California, we have had a database for some period of time. We 
toughened the law up in the 1990's while I was attorney general 
such that we require people to continue to be registered for 
their life.
    Some of the complaints about establishing such a database 
sort of remind me of when we were dealing with Megan's law. 
People said there is some violation of privacy rights or 
something.
    The fact of the matter is if someone is convicted of an 
arson, that is a record that is publicly available. The problem 
is it is difficult to put it all together in order to have law 
enforcement be able to utilize this at a time of threat or a 
time of actual fire.
    I happen to think this kind of database would actually be--
a registry would be helpful in our pursuit of preventing fires 
and also attempting to find perpetrators where fires are 
established.
    So I happen to--I would like to commend the authors of the 
bill for bringing this bill to our attention.
    I thank the gentlemen who are here representing the 
courageous firefighters around the country but particularly in 
our home state of California where we, unfortunately, suffer 
from the vagaries of natural disaster, including our Santa Ana 
winds, but also exacerbated by those who, for various reasons, 
commit criminal acts of arson.
    It devastates entire communities, causes death and 
destruction, and the damage lasts for years and years and years 
and years.
    And the threat of a fire coming down a canyon at 110 miles 
an hour in areas where people live, where people find 
themselves, or the firefighters themselves, is just such an 
awesome act once it gets going that it is difficult to 
describe, as much as you gentlemen have done on this and other 
occasions.
    And in face of such an overwhelming threat, it just seems 
to me that this makes reasonable sense, and I appreciate the 
gentlelady from California and the gentleman from California 
talking about us amending it if there is any problems.
    But the fact of the matter is the basis of the need is 
there. I think this is a professional, reasonable approach that 
will give us additional information.
    And just think about it. If through this we deter a single 
fire, given what we have seen in California recently, it would 
well be worth it.
    So I thank you for bringing this before us, and I thank the 
Chairman for having this hearing and the subsequent markup and 
hope we can move this along quickly.
    I thank the gentleman for yielding.
    Mr. Scott. Thank you.
    And the gentleman from Texas, Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And I do also appreciate all of your being here and, of 
course, those standing on the front lines between us and harm--
we appreciate you very much and appreciate you being here.
    My friend from California indicated he didn't know why 
anybody would oppose, and you know, I am one who is always 
watching out for States' rights. Obviously, there are occasions 
when it is necessary to bring the whole country together.
    But I approach, you know, a bill like this--how does it 
affect States' rights? And obviously, there was a great deal of 
careful thought given to this bill, and not in--trying to avoid 
any effort to intrude on what under our Constitution is the 
State's right to pursue and investigate and prosecute criminal 
laws.
    And also, in noting the arson fire statistics from the 
National Fire Incident Reporting System, the U.S. Fire 
Administration, Department of Homeland Security, it looks like 
the number of fires is down dramatically, the number of deaths 
not down quite as dramatically, or the loss.
    But it does seem like we are getting more sophisticated 
arsonists. And of course, in this mobile society a lot more 
folks happen to start a fire and then move on to another State.
    So I can understand someone's hesitance because of my 
approach to bills like this, but then in weighing the need for 
it and the ability to actually enhance a State's capability of 
investigating, and pursuing and prosecuting arsonists, I think 
it is overall a very good thing.
    I am curious. When we talk about who would have access, law 
enforcement--and whoever knows--and, Congressman Schiff, you 
may answer it right away, but would insurance companies have 
access to that information initially, do you know?
    Mr. Schiff. I think the answer is no.
    Mr. Gohmert. Okay. And I would have mixed emotions about 
that. On the one hand, you know, we are hoping that people 
reform and don't start fires. And of course, everybody needs 
fire insurance for a home, that kind of thing.
    So apparently its availability would come into play if 
there were any suspicion of wrongdoing--then could consult with 
local law enforcement after an act on an insured dwelling or 
building, and the law enforcement would then be able to get 
that information? Is that basically the gist?
    Mr. Schiff. I would think, Mr. Gohmert, that the insurance 
company would be predominantly interested in whether the fire 
was arson. And they would get that information from the fire 
department and whatnot. That would determine whether the claim 
was covered or not covered or whatnot.
    They would, I am sure, have an interest in seeing that who 
was responsible was prosecuted, but in terms of their need to 
have access to the registry, they probably wouldn't have a 
need.
    And it might be hard to contain the information----
    Mr. Gohmert. Well, unless there was evidence that it may 
have been arson, if there was that suspicion, and law 
enforcement started an investigation, then certainly they would 
have access to the information at that point.
    Mr. Schiff. Well, I mean, yes.
    Mr. Gohmert. It is not something you go on fishing 
expeditions in. And understand, I am very sensitive to--well, 
there was a lawsuit not too many years ago, and all I did was 
read the account in some of the legal journals.
    But as I understood it, they had a memo from somebody 
within the insurance company saying after the house fire, first 
see if there isn't some way you can claim that it is arson so 
we don't have to pay it.
    We don't want to support those. But my understanding is if 
there is actual evidence, enough to file a complaint, then law 
enforcement would have that information, correct?
    Mr. Schiff. Yes. I would think that if there is evidence of 
arson, that that evidence, in some form, is shared with the 
insurance company. My point is that I don't know that the 
insurance company needs access to a registry----
    Mr. Gohmert. I agree.
    Mr. Schiff [continuing]. In order to find out whether it is 
a legitimate claim or not.
    Mr. Gohmert. Right.
    Mr. Schiff. And if you do give them access to the registry, 
you may not be able to contain who else gets access to the 
registry.
    Mr. Gohmert. Yes. And that is why I asked the question, 
because if you start from the position where you are a former 
arsonist, so therefore we are not going to ever pay a claim, 
even though we have received all of your payments all these 
months--and that is what prompted me to ask the question.
    I am not sure that it is appropriate for them to have that 
information, unless there is evidence of fire--that is what 
prompted the question. I think we are concerned about the same 
thing.
    But I appreciate you all pushing this bill, and hopefully 
it will result in fewer arsons in the future, even so. And 
thank you again for your work.
    And, Mr. Chairman, I yield back.
    Mr. Scott. Thank you.
    And do any other Members have questions? If not, we will 
thank the witnesses for their testimony and ask unanimous 
consent that Members have 5 legislative days to input any other 
matters into the record.
    Thank you very much for your testimony today.
    [Whereupon, at 2:10 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
